                         Pension Benefit Guaranty Corporation
                                                            Office of Inspector General
                                           1200 KStreet, N.W., Washington, D.C. 20005-4026


                                                                                  November 10,2004



FROM:            Robert Emmons
                 Inspector General

SUBJECT:         Audit Policy

The Inspector General Act of 1978, as amended, 5 U.S.C. App. 3, ("the IG Act"),
established the Office of Inspector General (OIG) to create independent and objective
units to conduct and supervise audits and investigations relating to the programs and
operations of government entities (5 U.S.c. App. § 2(a)). Among the duties and
responsibilities assigned to the Inspector General in § 4 of the IG Act are specific audit
authorities that require the Inspector General:

           (a)(l) to provide policy directionfor and to conduct, supervise, and
        coordinate audits and investigations relating to theprograms and
        operations of such establishment [designatedfederal entityf;
                               *      *       *
            (b)(l)(B) establish guidelines for determining when it shall be appropriate to
        use non-Federal auditors; and
            (b)(l)(C) take appropriate steps to assure that any work performed by non-
        Federal auditors complies with the standards established by the Comptroller
        General as described in paragraph (1).

In accordance with the statutory mandate, the OIG establishes the following audit
policies:

1. General. Under the IG Act, the Office of Inspector General is responsible for
conducting independent audits ofPBGC's programs and operations in accordance with
standards established by the Comptroller General. The Assistant Inspector General for
Audit is responsible for technical oversight of all audits. When supervising and
coordinating audits, the OIG will look to the best interest of the government and avoid
unnecessary duplication.



I PBGC was named as a "designated federal entity" and the Office ofInspector General established in the
1988 amendments to the IG Act. Section 8G(g) assigns all of the duties and responsibilities enumerated in
section 4 to the Inspectors General of designated federal entities.
2. Use of non-Federal auditors. Recognizing that both the OIG and PBGC management
   contract with non-federal auditors, OIG will review the use of non-Federal auditors
   to prevent duplication, avoid conflicts of interest, and protect the interest ofPBGC.

    a) Management Review and Oversight. This policy recognizes that the IG Act is
       not intended to conflict with management's responsibility to review or oversee
       PBGC operations such as:

           .   Understanding internal controls and verifying that they are operating
               effectively.
           .   Performing regulatory audits or reviews to satisfy PBGC's oversight
               responsibilities under ERISA. Examples of this kind of work are the
               audits when trusteeing a plan or Premium Compliance Reviews performed
               by CCRD.
           .   Management reviews of contracts to provide the contracting officer better
               information.

    b) Audit Services. OIG will review proposed contracts for audit services provided
       by non-Federal auditors to determine if the work:

           .   is regulatory oversight that does not duplicate the work of OIG;
           .   includes appropriate contract provisions; or
           .   causes a conflict of interest or impacts on the auditor's independence.

    c) Non-audit Services. To assist the OIG in carrying out its responsibilities,
       management has agreed to inform the OIG of contracts for non-audit services
       provided by non-Federal auditors before award. OIG will promptly inform
       management of potential concerns, such as duplication or conflict of interest.

3. Compliance with Auditing Standards. To accomplish OIG's statutory requirement to
   oversee non-Federal auditors, contracts for regulatory oversight audits should contain
   provisions that:

           .   the OIG is responsible for monitoring compliance with the Comptroller
               General's auditing standards; and
           .   the non-Federal auditor will provide their most recent peer review to OIG
               on request.
